No. 20-366

In the Supreme Court of the United States
DONALD J. TRUMP,
PRESIDENT OF THE UNITED STATES, ET AL.,
Appellants,
v.
NEW YORK, ET AL.,
Appellees.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the accompanying
amicus curiae brief of Immigration Reform Law Institute in the above-captioned matter
contains 2,511 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 6, 2020.

/s/ Lawrence J. Joseph
Lawrence J. Joseph
1250 Connecticut Ave, NW, Suite 700-1A
Washington, DC 20036
Tel: (202) 355-9452
Email: lj@larryjoseph.com
Counsel for Amicus Curiae

